No.

IN THE

Supreme (Exmrt of the “llmteb JBtates
Brian Keith Figge,

Petitioner,
v.

Scott Frauenheim, Warden,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE PURSUANT TO RULE 33

Pursuant to Rule 33.2, I hereby certify that this petition is 31 pages

long and therefore complies with the page limit set out in Rule 33 and was
prepared in 13-point Century Schoolbook font.
Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

1
DATED: December 14, 2020
MARK R. DROZDOWSK I*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record
1

